<html>
<title> - FEDERAL CYBERSECURITY DETECTION, RESPONSE, AND MITIGATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
       FEDERAL CYBERSECURITY DETECTION, RESPONSE, AND MITIGATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 20, 2016

                               __________

                           Serial No. 114-157

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-066 PDF              WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001              
  
  
  
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                          Mike Flynn, Counsel
                      Sean Brebbia, Senior Counsel
                          William Marx, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Information Technology

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Minority Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 20, 2016...................................     1

                               WITNESSES

Mr. Sanjeev Bhagowalia, Deputy Assistant Scretary for Information 
  Systems and Chief Information Officer, Department of Treasury
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Steven C. Taylor, Chief Information Officer, Department of 
  State
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Andy Ozment, Assistant Secretary for Cybersecurity and 
  Communications, Department of Homeland Security
    Oral Statement...............................................    21
    Written Statement............................................    23
Mr. Richard Barger, Chief Intelligence Officer, ThreatConnect, 
  Inc.
    Oral Statement...............................................    32
    Written Statement............................................    34

                                APPENDIX

Report titled, ``Liberty and Security in a Changing World,'' 
  submitted by Mr. Lieu..........................................    64
LA Times article titled, ``4.5 Million Smartphones Were Lost or 
  Stolen in U.S. in 2013,'' submitted by Mr. Lieu................    65
Letter for the Record submitted by Gibson, Dunn & Crutcher LLP...    66
Questions for the Record for Mr. Steven Taylor, submitted by Mr. 
  Hurd...........................................................    69
Questions for the Record for Mr. Steven Taylor, submitted by Mr. 
  Farenthold.....................................................    83
Questions for the Record for Mr. Andy Ozment, submitted by Mr. 
  Farenthold.....................................................    87
Questions for the Record for Mr. Andy Ozment, , submitted by Ms. 
  Kelly..........................................................    91
Questions for the Record for Mr. Steven Taylor, submitted by Mr. 
  Connolly.......................................................   101


       FEDERAL CYBERSECURITY DETECTION, RESPONSE, AND MITIGATION

                              ----------                              


                       Wednesday, April 20, 2016

                  House of Representatives,
            Subcommittee on Information Technology,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:34 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Will Hurd 
[chairman of the subcommittee] presiding.
    Present: Representatives Hurd, Chaffetz, Farenthold, 
Walker, Blum, Kelly, Connolly, and Lieu.
    Mr. Hurd. The Subcommittee on Information Technology will 
come to order. And without objection, the chair is authorized 
to declare a recess at any time.
    Good morning, everyone.
    Every day, Federal agencies face a barrage of attacks on 
their information systems from a number of different actors. 
Attacks on both the public and private sectors consistently 
reveal one common truth: No one is immune.
    In December of last year, Juniper Networks announced that 
malicious code had been placed in its ScreenOS software leaving 
a gaping vulnerability in one of its legacy products. This 
particular vulnerability may have allowed outside actors to 
monitor network traffic, potentially decrypt information, and 
even take control of firewalls.
    Within a matter of days, the company provided its clients, 
which include various U.S. intelligence entities and at least 
12 Federal agencies, with an emergency security patch.
    DHS and other law enforcement agencies acted swiftly to 
notify Federal agencies of the breach in Juniper's security 
advisory. Both of their actions may have averted a potentially 
devastating breach of sensitive data. This is just one 
sophisticated example of the attacks that U.S. companies and 
their Federal clients face on a daily basis.
    In January of this year, the committee sent letters to the 
heads of 24 Federal agencies requesting an inventory of systems 
running the aforementioned software. Additionally, the 
committee asked for an update of their progress in installing 
the corresponding security patch.
    Of the 12 agencies affected, 3, including the Department of 
Treasury, took longer than 50 days to fully install patches and 
mitigate the threat posed by this vulnerability. This is 
absolutely unacceptable.
    The inability of Federal agencies to maintain a 
comprehensive view and inventory of their information systems 
and to respond to Congress in a timely manner cannot be the 
status quo.
    Last December, Congress passed landmark information-sharing 
legislation, the Cybersecurity Act of 2015, which creates a 
voluntary cybersecurity information-sharing process to 
encourage public and private sector entities to collaborate and 
share information. Moreover, the bill established the 
Department of Homeland Security as the sole portal for 
companies to share information with the Federal Government.
    With their newly codified role, I look forward to working 
with Dr. Ozment and DHS on how to strengthen their own posture 
and ensure that they possess the necessary technical tools to 
detect and mitigate threats and disseminate threat information 
within the Federal Government. Only by fostering this framework 
where government and private entities are able to freely share 
knowledge of security vulnerabilities, threat indicators, and 
signatures can we be sure that our network defenses are getting 
the best intelligence available.
    In addition, we must continue to learn from the private 
sector. Industry leaders like ThreatConnect and FireEye are 
consistently pushing the envelope in what is possible in 
cybersecurity. The government should not seek to compete with 
them, but rather they should harness these engines of 
innovation, learn from them, and safely cooperate with them 
under the guidance of good sense and personal liberty.
    I hope that this hearing will serve as a starting line for 
a larger conversation on attribution. Various international 
groups and state-sponsored actors are constantly attempting to 
steal military secrets and expose the personally identifiable 
information of American citizens and we cannot stand idly by 
while this happens. I believe that attribution is a form of 
deterrence.
    This hearing presents an opportunity to learn how Federal 
agencies can improve their overall cybersecurity postures, 
share more timely and relevant information, and work with the 
private sector in a way that benefits all involved, while 
respecting the institutions of commerce and privacy.
    I welcome our witnesses and look forward to hearing your 
testimony today.
    I would like to yield to the chairman from the great State 
of Utah, Mr. Chaffetz.
    Mr. Chaffetz. I thank the gentleman. And Mr. Hurd, I thank 
you for your leadership on this issue. You are such a valuable 
part of our team in making this happen.
    But to those that are in the Federal Government, we've got 
to up our game. I was elected the same time as President Obama 
was. Starting in 2009, if you look at the expenditure on the IT 
budget, the Federal Government has spent more than $525 billion 
on IT and it doesn't work. It doesn't work.
    And so I see that the President has a proposal, he needs 
another $3 billion. As if $525 billion wasn't enough, he needs 
$528 billion in order to actually solve these problems. I have 
a hard time believing that we're just 3 more billion away from 
actually solving this.
    I understand the predicament that we're in because as best 
I can see on a macro level, we are spending about 70 percent of 
our $80-plus billion a year now on legacy systems. And it is 
difficult, to say the least, on making that transition from 
those legacy systems to newer, more progressive, more secure 
networks and using the basic software.
    I got to review a document from the Department of Justice. 
Was on WordPerfect. WordPerfect was a great company back in 
1990. They were a Utah company, and had a good product, but 
they still are using WordPerfect at the Department of Justice. 
And I'm sorry, with all due respect to Corel, it maybe is not 
the most up to speed and very difficult to share with others.
    And it just begs the question of why in the world we 
continue to have to teach people how to use COBOL. We have some 
that I have heard are using punch cards still. I mean, it's 
unbelievable how far behind we are. And yet, I don't think it's 
for a lack of funding.
    It is just unexcusable for, in my mind--it is just 
inexcusable, I should say--inexcusable that we need a patch and 
it takes 50 days to do it. Fifty, really? Come on. Patching a 
vulnerability should be priority one and should be done within 
the day. There is no excuse for waiting nearly 2 months to 
patch what is known as a vulnerability.
    At the Department of Education, it's something Mr. Ozment, 
I hope, would look at personally, because the inspector general 
was able to go into the Department of Education and look into 
their system, surf around for 3 days, and come out undetected, 
despite their deploying EINSTEIN, which begs the question of, 
with all due respect to the inspector general, I'm guessing 
they are good, but they are probably not as good as the 
Russians, the Chinese, the others that do this type of thing 
for a living.
    And so I do agree with Mr. Hurd that one of the things we 
have to talk about is how to fight back. And attribution, just 
flat-out acknowledgment and pointing the finger at who is doing 
what, might be a form of deterrent. But I do think it's one of 
the big questions--we won't answer it today--but I do think 
it's a big question for those of us in Congress, how do you 
fire back? You know, if somebody fired a weapon on us we could 
fire back at them. But if they're attacking us online, how do 
we fight back? And I don't know the answer to that.
    But we need all of your help here today. We have got a lot 
on the line, a lot of personal information, a lot of 
vulnerabilities for the country itself. And so we thank you for 
your expertise and your commitment. We want to be part of the 
solution, not part of the problem, not just fire arrows. We are 
supposed to be oversight, but then government reform. And we 
can, I think, help you solve these problems, because this is 
the first time in the Congress we have actually had a 
subcommittee focused on just information technology.
    And so we are going to highlight the problems, but our next 
step is, how do we solve those? And, collectively, we need to 
come together in a bipartisan way and help you accomplish that 
and achieve that. So that's the spirit in which we do this.
    I thank the gentleman. Thank you for the time. I yield 
back.
    Mr. Hurd. Thank you, Chairman.
    And now this subcommittee in 17, 18 short months has done, 
I think, a lot of good work in government reform and 
identifying the problem. And part of that is because of the 
bipartisan nature in which we do that. And we are able to do 
that because of the leadership of the ranking member on the 
Subcommittee on Information Technology, Ms. Kelly from 
Illinois, and I would like to recognize her for her opening 
statement.
    Ms. Kelly. Thank you, Mr. Chairman, for holding this 
hearing on how Federal agencies detect, respond, and mitigate 
the growing number of cyber threats they encounter each year.
    And thank you to our witnesses for being here.
    The Federal Government and the private sector are facing a 
volume of cyber attacks that just a few years ago would have 
been unimaginable. According to a new report by security firm 
Symantec, 54 zero-day vulnerabilities were discovered in 2015, 
more than twice as many as in 2014. Compared to the previous 
year, in 2015, the instances of ransomware increased by 35 
percent.
    We need to ensure that the Federal Government has the 
resources necessary to respond to these vulnerabilities and 
threats. Agencies are spending up to three-quarters of their 
information technology budgets maintaining legacy systems that 
were never designed to deal with today's cybersecurity risks. 
Adding to the problem is the increasing difficulties agencies 
are having in filling more than 10,000 vacant cyber positions 
across the Federal Government.
    As Tony Scott, the chief information officer for the 
Federal Government, has said, and I quote, ``We have a broad 
surface area of old, outdated technology that is hard to 
secure, expensive to operate, and on top of all of that, the 
skill sets needed to maintain those systems are disappearing 
rather rapidly.''
    But we are making progress in fixing that. I, along with my 
colleagues on this subcommittee and Ranking Member Cummings, 
were original cosponsors of Congressman Steny Hoyer's 
Information Technology Modernization Act. The act would 
authorize the creation of an Information Technology 
Modernization Fund to help Federal agencies upgrade their aging 
information technology systems. Over the first 10 years the 
fund would help facilitate upgrades to $12 billion worth of 
civilian IT programs and make sure the Federal Government has 
the most effective, secure IT infrastructure possible.
    Legislation like the ITMA sends a clear message that 
Congress understands the challenges facing our Nation's Federal 
IT systems. But there is more to be done. I look forward to 
hearing from our witnesses today when their threat response 
processes in place, and I look forward to working with you, Mr. 
Chairman, to do what's needed to ensure that we keep the 
Federal Government secure from the growing number of cyber 
threats.
    I yield back.
    Mr. Hurd. I would like to thank the ranking member for her 
comments.
    We will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    Mr. Hurd. Now I'd like to recognize our panel of witnesses. 
I'm pleased to welcome Mr. Sanjeev Bhagowalia. He's the deputy 
assistant secretary for information systems and chief 
information officer at the Department of Treasury. Mr. Steven 
Taylor, chief information officer at the Department of State. 
Dr. Andy Ozment, assistant secretary for cybersecurity and 
communication at the Department of Homeland Security. And Mr. 
Richard Barger, chief intelligence officer at ThreatConnect 
Incorporated.
    I would like to welcome you all.
    And pursuant to committee rules, all witnesses will be 
sworn in before they testify. So please rise and raise your 
right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated.
    And let the record reflect the witnesses answered in the 
affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes, and your entire written statement will 
be made part of the record.
    Mr. Bhagowalia, we will start with you, and you are 
recognized for 5 minutes.

                       WITNESS STATEMENTS

                STATEMENT OF SANJEEV BHAGOWALIA

    Mr. Bhagowalia. Thank you, Chairman.
    Chairman Hurd, Ranking Member Kelly, and members of the 
subcommittee, thank you for the opportunity to testify on 
Treasury's approach to the detection and mitigation of 
cybersecurity vulnerabilities.
    Treasury relies on technology to meet our mission of 
serving the American taxpayers and acting as a steward of the 
national economy. Cybersecurity is one of the top priorities of 
Treasury, not only for the CIO, but also for the Department and 
bureau senior leadership. We are continuously and incrementally 
improving in management oversight over the IT environment, 
including cybersecurity. We are leveraging synergy 
opportunities across the enterprise through authorities in law, 
like FITARA and FISMA, to more effectively use our people, 
policy, processes, technology, and governance in cyberspace.
    Detecting and mitigating vulnerabilities in our environment 
before they are exploited by our adversaries is an essential 
component in Treasury's ``defense-in-depth'' strategy.
    I have divided my testimony into two parts. The first part 
will explain how we tackle vulnerability mitigation of the 
Department, and the second part will outline how we participate 
in the governmentwide Federal cybersecurity community.
    Part one, vulnerability detection, reporting, response, and 
mitigation within Treasury. As you know, Treasury is a large, 
geographically and technically diverse enterprise with bureaus 
having widely varying missions requiring widely varying IT 
environments. While Treasury bureaus are empowered to make IT 
decisions necessary to execute their individual missions and 
carry out operational security functions within their 
environments, the Treasury CIO is accountable to ensure that 
those decisions properly consider security implications and 
evaluate risk and vulnerabilities.
    Treasury has aligned our departmental cybersecurity 
strategy with the five-part NIST national Cybersecurity 
Framework and the Cybersecurity National Action Plan, CNAP, to 
ensure common objectives across the enterprise.
    Vulnerability detection. IT companies, government agencies, 
security researchers, and others identify thousands of security 
weaknesses each year. Critical vulnerabilities are a far 
smaller number, in hundreds. Vulnerability detection requires a 
multidimensional approach involving asset management, automated 
tools, monitoring of communication channels, and human 
analysis. The foundation of good comprehensive vulnerability 
detection is strong asset management.
    To this end, Treasury has policies in place requiring 
bureaus to perform regular asset and vulnerability inventory 
scans using automated tools. Treasury maintains a central 
Department-wide security operations center that operates around 
the clock. It's called the SOC. The SOC monitors classified and 
unclassified government channels, as well as open source and 
industry channels, for news of critical vulnerabilities.
    In response, reporting, mitigation of known 
vulnerabilities, we follow the maxim that cybersecurity is 
about risk management. Bureau IT organizations undertake risk 
analysis for each vulnerability and schedule testing and patch 
deployment as appropriate. A risk analysis may result in 
several mitigation approaches, such as patching, instituting 
compensating security controls, and migrating to a new software 
or hardware solution. Treasury and its bureaus start by 
remediating vulnerabilities on assets with the greatest risk 
exposure first and then moving systematically to remediate the 
remaining assets.
    The recent Juniper vulnerability offers an example of this 
process in action. Table 1 in my written testimony illustrates 
how 57 affected devices across Treasury were remediated from a 
time and risk perspective. Treasury coordinated an 
enterprisewide response to the Juniper vulnerability within a 
couple of hours of receiving the information from open source 
vendor channels and DHS. Treasury fixed 25 percent of the 
patches within a day, 84 percent within a week, and 86 percent 
within 2 weeks, and 93 percent 7 weeks. But if you look at it 
from a risk lens, we fixed 40 out of the 57 devices, 
representing 100 percent of high-risk devices, within 6 days. 
Of the remaining 17 low-risk devices, 13, or 76 percent, were 
completed by February 4, and the remaining 4 devices were 
completed over the next 10 days.
    A detailed analysis determined that the configuration posed 
low risk of the exploitation of the vulnerability because the 
devices were not directly connected to the Internet, were not 
directly affected by the vulnerability, and each had multiple 
layers of compensating controls in place.
    So a challenge faced by large agencies in complying with 
governmentwide mandates to address particular vulnerabilities 
is the need to balance operational and security risk. In many 
cases the device must be patched as part of a complex 
operational system with several legacy components that may not 
be compatible with the security fix. So we respectfully request 
and suggest that factor should be considered in reporting. 
Could we have done it a little bit faster? Yes.
    Part two, Treasury's role in governmentwide vulnerability 
detection, response, and mitigation. I would like to thank DHS 
for the leadership role in coordinating Federal cybersecurity. 
Treasury fully participated in the EINSTEIN program and looks 
forward to EINSTEIN 3A. The CDM program led by DHS will help us 
move as the entire U.S. Government from federated compliance to 
integrated continuous monitoring and mitigation.
    Treasury is an enthusiastic participant in the CDM program. 
We expect CDM will improve situational awareness regarding 
vulnerabilities and will move us to better automation of 
tracking in real time.
    In conclusion, while Treasury has established a solid 
procedural and operational foundation to identify and mitigate 
vulnerabilities, our adversaries are constantly changing their 
methods. I see two opportunities where congressional support 
could aid our efforts.
    First, hiring and retaining cybersecurity staff remains a 
challenge. We ask for continued support to streamline hiring 
and offering appropriate incentives to attract and retain that 
talent.
    Second, we ask for some consideration in the fiscal year 
2017 budget request for a cybersecurity enhancement account 
which will enable us to keep pace with the rapidly evolving 
adversaries through targeted and accountable spending.
    Thank you for your attention to this important matter. I 
appreciate this opportunity to testify today, and I will be 
glad to answer any questions you may have. Thank you.
    [Prepared statement of Mr. Bhagowalia follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Mr. Hurd. Thank you, sir.
    Mr. Taylor, you are recognized for 5 minutes.

                 STATEMENT OF STEVEN C. TAYLOR

    Mr. Taylor. Chairman Hurd, Ranking Member Kelly, 
distinguished members, thank you for inviting me to testify 
about the Department of State's cybersecurity program.
    The Department of State, as the lead U.S. foreign affairs 
agency, has over 70,000 employees in our 275 overseas and 30-
plus domestic locations. Like all government agencies and 
businesses, particularly organizations the size of the 
Department, we face a dilemma. The Department relies on the 
Internet and email to conduct our day-to-day operations, 
communicating with U.S. and foreign citizens and organizations 
about a wide variety of issues. We use these tools to support 
passport and visa applications, to communicate about foreign 
policy initiatives, and to conduct the day-to-day business of 
the Department.
    We also know that email and the Internet are avenues 
through which our networks and databases can be attacked. As a 
breach of our own unclassified email system in 2014 
demonstrated, our adversaries see information handled by the 
Department and many other U.S. Government agencies as a 
desirable target. Annually, we experience millions of attempts 
to breach our networks and gain possession of our information.
    Protecting our information as we face increasingly 
sophisticated, frequent, and well-organized cyber attacks is a 
top priority for the Department of State. The Bureaus of 
Information Resource Management and the Diplomatic Security 
share the role of defending our networks through our joint 
security operations center and through collaborative long-range 
planning.
    Alongside our partner Federal agencies, we've developed 
increasingly robust defenses as the sophistication and 
intensity of these threats increases. The foundation of our 
cybersecurity framework is the Federal Information Security 
Modernization Act, or FISMA, along with OMB guidance and the 
National Institute for Standards and Technology guidelines. But 
we go far beyond these guidelines to protect our network and 
data while protecting privacy and civil liberties.
    The Department of Homeland Security serves as a first line 
of defense by filtering our traffic through the EINSTEIN system 
which detects and blocks cyber attacks on Federal agencies and 
through its trusted Internet connections and continuous 
diagnostics and mitigation initiatives. In addition, we monitor 
our networks with an extensive defensive toolset.
    We also make great efforts to educate our network users so 
that they, themselves, are defending our systems. Annually, the 
Department of State employees must complete security and 
privacy awareness training. In addition, network users must 
answer a security challenge question prior to logging on to the 
systems each and every day.
    We amplify the effectiveness of our defenses through 
partnerships with US-CERT, the Department of Homeland Security, 
the Federal Bureau of Investigation, the National Security 
Agency, U.S. Digital Services, and other agencies in the 
private sector. Our partners in the intelligence community, 
DHS, and other agencies in the private sector perform 
penetration testing to ensure our defenses are capable of 
withstanding persistent attacks. They also provide us with a 
steady stream of information about probable sources, methods of 
attack, and recommended countermeasures.
    We recognize that intrusion is possible even with the best 
defenses. Today we train and prepare for a wide range of cyber 
threats. Some can be contained by removing a hard drive, while 
others may require that we take a system offline. We are 
constantly working with our partners to defend against the 
known and evolving threats.
    Looking to the future, we are creating a safe zone between 
our data and the Internet through segmentation of our networks, 
by reengineering our business practices, and leveraging cloud 
services. The most powerful and promising tools for our defense 
are effective risk management, our public and private 
partnerships, clearly defined agency roles, effective 
information sharing, employee education, and of course next 
generation technology.
    We appreciate the support on cybersecurity issues, and we 
look forward to working with Congress and our partners to 
defend our critical information and systems. Thank you.
    [Prepared statement of Mr. Taylor follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Mr. Hurd. Thank you, Mr. Taylor.
    Dr. Ozment, you are recognized for 5 minutes.

                    STATEMENT OF ANDY OZMENT

    Mr. Ozment. Chairman Hurd, Ranking Member Kelly, and 
members of the committee, thank you for the opportunity to 
appear before you today.
    Recent compromises clearly demonstrate the challenge facing 
the Federal Government in protecting our systems and networks 
against sophisticated, agile, and persistent threats. 
Addressing these threats is an important shared responsibility.
    Today I will focus on how we protect Federal civilian 
departments and agencies. It is important to note that each 
agency is responsible for managing its own cybersecurity risk 
under the Federal Information Security Modernization Act, or 
FISMA 2014. My organization assists agencies in performing that 
risk management through four lines of effort.
    First, we provide cybersecurity protections where it is 
effective and cost efficient. This baseline is principally 
provided by two programs. The EINSTEIN program detects and 
blocks cyber attacks outside of agency perimeters, and the 
Continuous Diagnostics and Mitigation, or CDM program, provides 
tools for agencies to identify and prioritize vulnerabilities 
within their networks.
    Second, we measure and motivate agencies to implement best 
practices through risk assessments and targeted guidance.
    Third, we serve as a hub for cybersecurity information 
sharing between the government and the private sector through 
automated means whenever possible.
    And fourth, we provide incident response assistance to 
agencies.
    The committee is well aware that cybersecurity 
vulnerabilities are all too common. My organization serves a 
key role in helping agencies resolve significant 
vulnerabilities.
    Upon learning of a new vulnerability, our first priority is 
to rapidly promulgate actionable information to our partners. 
When the vulnerability is particularly critical, we hold an 
emergency interagency coordination call. These calls allow DHS 
to quickly convey key information to chief information security 
officers across the Federal civilian government.
    Additionally, we share information through secure portals 
managed by our National Cybersecurity and Communications 
Integration Center, or NCCIC.
    After disseminating information about a significant 
vulnerability, DHS at times collects information about 
governmentwide remediation progress. This information is used 
for two purposes: to understand the prevalence of a particular 
vulnerability across government and to drive individual 
agencies to more quickly implement required mitigations.
    Currently, this data-collection process is largely manual, 
but the CDM program will fundamentally change this paradigm. 
Through the CDM program, DHS will provide civilian agencies 
with tools to monitor their internal networks. CDM will allow 
us to shift from current manual methods of collecting 
vulnerability data to automated data collection.
    We have provided CDM Phase 1 tools to 97 percent of the 
Federal civilian government. Agencies are now deploying these 
Phase 1 tools on their networks. But this is not a simple or 
easy process. Deploying new technologies across 23 agencies and 
over 2 million users is a significant undertaking. We will see 
incremental progress over the next year and expect the first 
agency data to be available in early fiscal year 2017.
    It is also important to note what CDM will not do. The 
first phase of CDM will detect vulnerabilities in workstations, 
servers, network infrastructure, and operating systems in 
devices like routers. But other devices, like printers, will be 
identified by these tools, but will not be assessed for 
vulnerabilities.
    Perhaps most importantly, CDM relies on individual agencies 
to rapidly deploy these sensors across their networks and to 
use CDM data to, in fact, address the identified 
vulnerabilities.
    Even after learning of a vulnerability, agencies have 
varied capabilities to fix the problems. We can also provide 
agencies with technical assistance and consultation upon 
request. These services help agencies mitigate complex 
vulnerabilities and design more secure systems and assets.
    We appreciate the help of Congress in passing several key 
statutes for Federal cybersecurity over the past 2 years, 
including modernizing FISMA and enacting the Cybersecurity Act 
of 2015.
    This year, the fiscal year 2017 President's budgets funds 
several activities that will significantly enhance our ability 
to manage vulnerability detection and mitigation across the 
Federal civilian executive branch.
    First, the fiscal year 2017 budget funds a further 
acceleration of the CDM program and a new CDM phase focused on 
securing high-value data on agency networks.
    Second, the budget provides resources for additional 
personnel to help agencies remediate complex vulnerabilities or 
to design more secure systems.
    Finally, the budget funds more proactive assessment teams 
using the same techniques as malicious hackers, known as red 
teams.
    With the help of Congress, we will continue driving towards 
additional automation and deploy the resources required to 
support expedited remediation. This must be a shared effort. 
DHS, our partner agencies, and Congress must join together to 
ensure that vulnerabilities are rapidly mitigated before 
sensitive information or government services are placed at 
risk.
    Thank you.
    [Prepared statement of Mr. Ozment follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    
    Mr. Hurd. Thank you, Dr. Ozment.
    Mr. Barger, you are recognized for 5 minutes.

                  STATEMENT OF RICHARD BARGER

    Mr. Barger. Chairman Hurd, Ranking Member Kelly, members of 
the subcommittee, thank you for the opportunity to appear here 
today.
    My name is Rich Barger. I'm the chief intelligence officer 
and cofounder of ThreatConnect, a Virginia-based security 
company. I lead our research team. It's responsible for 
tracking existing and emerging threats, to ensure that our 
software platform is uniting security teams, their processes, 
and their technologies to bring together a cohesive unity of 
effort so that organizations can more efficiently conduct 
intelligence-driven security operations.
    ThreatConnect was founded in 2011 and our platform launched 
in 2013. Since then, we have seen 40 percent of the Fortune 100 
use our platform and amassed over 9,000 global users.
    Today my testimony will focus on fragmentation as the root 
cause behind our continuing struggle to detect, respond to, and 
mitigate modern threats. The four key areas I will discuss are 
people, processes, technologies and community.
    Our customers within both public and private sectors often 
express the same problem, but they do so in different ways. 
Fragmentation across their security operations is both their 
biggest frustration as well as their biggest risk. Whether they 
are a global financial services firm, a U.S. energy company, or 
a Federal agency, the fissures that exist across people, 
processes, and technologies create the very footholds into our 
networks that give malicious actors access to our finances, 
sensitive personal data, and corporate intellectual property.
    Now, it's important to understand that information security 
is heavy work. There is no easy button. There is no silver-
bullet solution. Today's network defenders face a gargantuan 
task of protecting networks that were not originally designed 
with security in mind.
    In terms of security teams and practitioners, as we 
increase our numbers of individuals and teams required to work 
together, organizational agility, transparency, and situational 
awareness will often suffer, making us our own worst enemy. Too 
often as an organization's domain expertise and institutional 
memory is scattered across these diverse teams, share drives 
and emails, it is often rendered functionally inaccessible.
    Fragmentation also exists across the executive staff, from 
C-suites to boards. There is a communication deficit which 
negatively impacts leadership's ability to interpret and 
prioritize core challenges and subsequently leads to 
ineffective decisionmaking.
    This brings us to process. There is no one-size-fits-all 
approach. Enterprises, much like snowflakes, are made of the 
same elements but uniquely configured. Different business 
objectives drive different business processes and 
multidisciplinary security operations reflect a company's 
overarching sector, vertical, legal, and regulatory 
requirements.
    In a lot of cases the answer to, ``Why do you do it this 
way?'' is simply, ``We've always done it this way.'' It's much 
easier to advocate for a new tool or more head count. 
Optimizing process seems mundane and intelligible by 
comparison. But this is the dirty little secret. Developing 
coordinated intelligence-driven processes is the linchpin to 
identify, protect, and respond to threats in an efficient, 
measurable way.
    In terms of technology, security teams worldwide feel that 
they spend too much time wrangling their various security 
solutions. Instead, they should be delivering that much-needed 
breathing room for these overburdened teams. Instead, these 
solutions often consume additional resources, and many are not 
designed to be interoperable. Better orchestration of security 
systems creates a combined-arms approach that allows the sum of 
the parts to yield mutually supporting effects against threats.
    The first three areas, people, processes and technologies, 
are internal to the enterprise. The last source of 
fragmentation is at the community level, outside the 
enterprise. Sharing today centers around atomic indicators of 
compromise.
    Now, this is a good start, but we need to do more of it and 
we need to also include sharing of the recipes that created the 
indicators in the first place. So let's continue to evolve 
today's baseline sharing practices to our broader goal of 
cross-sector coordination and collaboration.
    In conclusion, the disconnect between expectation and 
reality that fragmentation presents is a catalyst which is 
elevating the priority of enterprise security within the 
corporate structure. This rise must continue, and organizations 
must be properly incentivized to look at enterprise security as 
a critical business function.
    The security professionals of tomorrow must be educated and 
enabled to meet the current demand of security talent, and the 
market must drive the need for interoperable security 
technologies. The gap between compromise and detection is not 
closing, and that is why we are committed to reducing that 
thorny reality of fragmentation across both public and private 
sector security operations.
    I thank you for your time, and I look forward to any of 
your questions.
    [Prepared statement of Mr. Barger follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    
    Mr. Hurd. Thank you, sir.
    And I would like to recognize first, for the first set of 
questions, my colleague from the great State of Texas, Mr. 
Farenthold. He is recognized for 5 minutes.
    Mr. Farenthold. Thank you very much.
    I'm going to start with you, Mr. Ozment.
    The FBI for years has been pushing for encryption backdoors 
so they can easily access device content. However, security 
experts, including Ash Carter and NSA Director Admiral Rogers, 
as well as former leaders from the intelligence community, have 
all said that encryption is essential to national security, 
cybersecurity, and economic security.
    What is your take on the call for back doors? Do you think 
that makes us safer or less safe, and why?
    Mr. Ozment. Thank you, sir.
    The administration has highlighted a number of times that 
this is a very complicated issue with legitimate and important 
perspectives on both sides of the issue. We do have law 
enforcement concerns and the need to access data from malicious 
adversaries, whether they be terrorists or criminals, to deter 
and catch those individuals responsible for malicious actions. 
At the same time, from a cybersecurity perspective, we want 
more broad and secure encryption and other technologies to be 
widely disseminated.
    I would reflect the administration's position here that we 
do need a national conversation on this issue, and I think it's 
important that Congress has taken this issue up and has focused 
on it.
    Mr. Farenthold. All right.
    Mr. Barger, do you have a take on that?
    Mr. Barger. So the encryption issue is a very, very 
complicated subject. I would encourage the government to 
consider how they should be able to conduct investigations in 
striking a balance between privacy and also the need----
    Mr. Farenthold. We see in the case of the San Bernardino 
terrorist's iPhone that the FBI hired a hacker to break into, 
and they, the FBI, won't tell us how they did it. Haven't they 
discovered a cyber vulnerability in iPhones that needs to be 
disclosed so it can be patched?
    Mr. Barger. Well, I don't necessarily know the situation, 
the sources and methods which they applied to that, but it 
seems that they have found a creative workaround to the 
environmental conditions in which they were forced to operate 
and have been able to carry their investigation forward. 
Whether or not that was used for a specific vulnerability, I 
wouldn't know.
    Mr. Farenthold. All right, let's shift a little bit here to 
the Cybersecurity Information Sharing Act. And since DHS is 
kind of the hub, as you say, for that, what kind of success are 
we having on that? Are you tracking how many attacks have been 
shared that way and whether companies are actually applying the 
information that's being shared there? Do we have some numbers 
on any successes or failures there?
    Mr. Ozment, that's clearly in your alley.
    Mr. Ozment. Thank you, Representative.
    So we have, as you know, that Congress passed this act in 
December of 2015, and gave DHS some fairly aggressive 
deadlines. I'm proud to report that we did meet those deadlines 
and the Secretary of Homeland Security formally certified that 
the system was live on March 17 of this year.
    We will grow the system incrementally. We are not going to 
reach all of the American economy in just a few months. I'm 
very happy with our rate of growth to date. We have 14 non-
Federal entities currently connected to our server and 82 who 
are in the process of connecting the server who have signed our 
terms of use.
    So there's clearly an interest in doing this. It does 
require the other participant to build some IT infrastructure 
on their side. So it's like we've built a phone system and we 
have a phone. They also have to acquire a phone before they can 
call us.
    Mr. Farenthold. So you've been up and going a month now. Is 
that correct? Roughly a month?
    Mr. Ozment. That's right.
    Mr. Farenthold. So have there been any threats shared? I 
mean, do you have a number?
    Mr. Ozment. We have shared over 2,000 indicators to the 
private sector and we have received additional indicators that 
the private sector did not allow us to share onward to other 
companies but that we did share internally within the Federal 
Government.
    It is important to note that an indicator does not equal an 
incident. And so a company or government agency can learn about 
an indicator from a failed attack just as they can learn from a 
successful attack. So these do not all represent incidents. 
They represent ``be on the lookout for this bad guy'' activity.
    Mr. Farenthold. And one of the big concerns with the act 
was the sharing of personally identifiable information. How 
much personally identifiable information are we seeing coming 
and going with this?
    Mr. Ozment. We have multiple layers of protection to 
protect privacy. First, companies are required to vet what they 
share themselves. We have some automated mechanisms to prevent 
inappropriate or incorrect information from being shared. And 
then there are a few types of information that would require 
human review.
    The way that we block in an automated way inappropriate 
information from being shared is that we just don't accept it, 
so it's not even possible to send it to us. So I can't tell you 
how many of those blocks have occurred. I can tell you that our 
human review has not identified any inappropriate information, 
to my knowledge.
    Mr. Farenthold. I will dive into this a little bit deeper 
if we get a second round of questioning. I see my time has 
expired.
    Mr. Hurd. Ms. Kelly, you are recognized for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    According to its Web site, the United States Computer 
Emergency Readiness Team, US-CERT's role is to, and I quote, 
``leads efforts to improve the Nation's cybersecurity posture, 
coordinate cyber information sharing, and proactively manage 
cyber risk to the Nation.''
    Dr. Ozment, can you explain what that means?
    Mr. Ozment. Absolutely. So the US-CERT is a part of the 
NCCIC, our National Cybersecurity and Communications 
Integration Center. They have three broad roles shared by my 
larger organization. First is to promulgate best practices, 
help companies and Federal agencies understand what do they 
need to do to protect themselves?
    Second, is to share information about what the adversaries 
are doing so that those companies and agencies can adapt their 
defenses to the changing behavior of our adversaries.
    And third is to respond to incidents. US-CERT will respond 
to incidents, whether in the private sector or Federal 
Government or State, local, and tribal and territorial 
governments. We do that either by going on site, which we try 
to minimize because of the expense and overhead of doing it, or 
we can help remotely, sometimes just by analyzing the malicious 
software that was used in an intrusion, other times by giving 
more customized help to the situation.
    We prioritize the victims that come to us for help based 
upon our national risk. But we really encourage companies to 
reach out to the Federal Government, whether law enforcement or 
through us doesn't matter, we will connect it on the back end, 
and let us know about incidents so that we can come and help.
    Ms. Kelly. So if an government agency's computer is hacked 
and you say that part of your effort is to respond, does that 
include forensic analysis? What all does that include when you 
respond?
    Mr. Ozment. That's right. It includes--well, let me take a 
step back. Our role is different from law enforcement, and by 
analogy, every cyber incident is like an arson in the physical 
world. You want to have both the police and the firefighters 
responding to the incident.
    Our role is similar to that of the firefighter. We want to 
help a victim figure out where is the bad guy on their network, 
how do they get him off the network, work together to push that 
bad guy off the network, and then improve their defenses so 
that they are not just compromised again immediately 
thereafter.
    Then we take--well, all throughout that process, we take 
what we learn in this one incident and we broadcast it to other 
sectors, other companies, other agencies so that everybody can 
learn from the incident and make sure that they are themselves 
not victimized by the same approach that the adversary used in 
this case.
    Ms. Kelly. Okay. Now let's turn to government contractors. 
As you know, the biggest cyber intrusions of 2015 involved 
government contractors. Anthem is the largest provider of 
health insurance to government employees and it was hacked. 
KeyPoint is a provider of background investigation services and 
it was hacked, leading to the breach of OPM's network. What 
role did US-CERT play in the company's responses to those major 
cyber attacks?
    Mr. Ozment. I want to be careful not to speak to individual 
companies because we keep the confidentiality of our customers, 
if you will. But we have responded to attacks at both private 
sector companies, contractors, and Federal Government agencies. 
Depending on the situation, our role has been to analyze the 
malicious software, figure out, how did they break in and what 
did they once they got there? It has been to provide 
remediation advice: Here are the types of security measures you 
can put in place to ensure that this doesn't happen again. And 
to help them kick the bad guy off their networks.
    In an incident you often find a malicious actor, or you see 
traces of them on, say, one computer, and that's how you figure 
out that you've been compromised. But if you just kick them off 
that one computer, you can't be confident that you fully 
removed them from your network. So the first thing you have to 
do is look throughout your network, watch the bad guy, stay 
silent and watch the bad guy, see who they are talking to and 
where else they are on your network. You have to do that for a 
period of time so that you can be confident that when you kick 
them off you've gotten them entirely off your network, and we 
help victims with that as well.
    Ms. Kelly. Okay, thank you.
    Mr. Barger, when talking about the type of information 
forensics can provide, could it include information on the 
identity of future victims as well as how those victims might 
be attacked?
    Mr. Barger. Absolutely. Being able to gather information 
about an attacker, how they move, basically their genetic 
makeup, their capabilities, their intent, these fingerprints, 
essentially, can be telltale traces of how they do what they 
do. And to Dr. Ozment's point, you can leverage that intel gain 
and loss for everything that they show you. You can harness 
that information to then democratize that across your customer 
base and better understand who it is, what they're after, why 
they're after it, and over time that develops a great picture 
when you can get feedback from various other individuals or 
organizations that are affected by it to develop a much clearer 
information intelligence picture.
    Ms. Kelly. Okay, thank you. Looks like I have run out of 
time.
    Mr. Hurd. The distinguished gentleman from North Carolina, 
Mr. Walker, is recognized for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Thank you, panel, for being here today.
    Jumping right into questions for Dr. Ozment here, what 
participation rates have you seen from the private sector? Can 
you speak to that just for a moment?
    Mr. Ozment. Yes. We have, as you would expect, varying 
participation based on both the sector and also the program 
that we're talking about. We have a very wide uptake of the 
bulletins and advisories that we send out advising companies 
about security risks and mitigations. We have something like 
100,000 individuals signed up to receive those. And these tend 
to be the security individuals operating within a company.
    Mr. Walker. Right. What engagement have you seen from the 
Federal sector?
    Mr. Ozment. Federal sector, we also have pretty universal 
participation in our programs. And it is worth highlighting 
that as of about a year ago Federal departments and agencies 
are required to report incidents to US-CERT, part of my 
organization.
    Mr. Walker. Sure.
    Mr. Bhagowalia, is that correct?
    Mr. Bhagowalia. Yes, sir.
    Mr. Walker. All right. How effective has the Department of 
Homeland Security been in notifying your agency or notifying 
other government agencies?
    Mr. Bhagowalia. I think they have been very effective and 
things are improving. As you know, the threats have been coming 
at us in increasing frequency over time. Obviously, as the 
threats keep on coming at us, we work together with them, but 
we also work with other intelligence community agencies. 
Together, it's a community basically working together to make 
sure we are improving.
    Mr. Walker. Thank you.
    Mr. Barger, kind of the same question. How effective has 
DHS been in notifying the private entities?
    Mr. Barger. I can't think of, like, one security company 
that probably doesn't leverage the information that DHS puts 
out, whether it be on specific vulnerabilities or active 
threats. In many cases, that information serves as a seed in 
which we leverage and then continue to leverage private sector 
sources and methods to gain a better understanding of what we--
--
    Mr. Walker. The world of cybersecurity is fairly new for 
all of us in the last decade or so. And to use your analogy, 
Dr. Ozment, you were talking about an arson situation where you 
guys are the firefighters. But also, you guys are kind of the 
end all, kind of the central authority when it comes to all of 
this.
    Can you speak a little bit, because I'm concerned that if 
you're going to be the central authority in this, I do believe, 
to go back to your analogy, that it's not just the 
firefighter's part, the investigation part, but what role do 
you have in the policing of it as well? Because I don't want 
there to be any gaps here, because I do feel like you have a 
role to maybe funnel information to both segments. Would you 
mind taking a minute to speak to that?
    Mr. Ozment. Absolutely. This is a team sport, both in the 
private sector and in government, and so we do partner very 
closely with Federal law enforcement agencies, particularly the 
FBI, the Secret Service, and Homeland Security investigators. 
Those agencies do prosecute cybercrimes and are very aggressive 
in reaching out to victims to help them figure out who did this 
and ideally prosecute the perpetrator.
    And we often--we find out about incidents and with the 
permission of the victim we share that with law enforcement. 
They do the same. And so we may not find out directly from a 
victim. We may find out because the victim talked to law 
enforcement who then told us.
    Mr. Walker. The larger point is, we want to make sure that 
we are getting this right since this is relatively new, and 
your role with the law as the law says, CISA says, you guys are 
the central authority in this. So it's very important that the 
communication is exactly where and what it needs to be and to 
whom this information needs to go to.
    You know, we don't want this to be the IRS or the EPA where 
there's decades of dysfunction. We have a chance at the ground 
level to make sure that the proper channels of communication to 
all the various departments or players in this is very 
important. I guess that's why I'm emphasizing this.
    I have got one more thing before I yield back. This could 
be to Mr. Taylor. Mr. Bhagowalia may want to respond as well.
    Modern cybersecurity best practices require a much 
different approach to information security than the Federal 
Government has done before, as we talked about this as being 
brand new. Placing a premium on information sharing, continuous 
network monitoring, and ensuring continuity of operation plans, 
these, I guess, plans are in place when a breach or degradation 
does occur.
    So here's the question, okay? How are your departments 
modernizing to keep pace with these best practices and shifts 
in approach?
    Mr. Barger, would you address that?
    Mr. Barger. In terms of the----
    Mr. Walker. Best practices shift in approach when it comes 
to this information.
    Mr. Barger. The best practices in terms of vulnerability 
management where sharing?
    Mr. Walker. Sharing information, yes, networking.
    Mr. Barger. So communities have different looks and feels, 
different participants, different requirements, and so being 
able to understand who your audience is, what their needs and 
their requirements are, helps foment more user growth, user 
engagement and participation in that community. So not a one-
size-fits-all approach in that regard.
    Mr. Walker. Well, my time has expired, so I will yield back 
to the chairman. Thank you.
    Mr. Hurd. I would like to recognize the gentleman from 
California, Mr. Lieu, for his 5 minutes of questions.
    Mr. Lieu. Thank you, Mr. Chair.
    Mr. Ozment, are you familiar with this document 
commissioned by the administration called ``Liberty and 
Security in a Changing World'' in 2013? It's a report and 
recommendations of the President's Review Group on Intelligence 
and Communications Technologies?
    Mr. Ozment. I am familiar with it, sir, yes.
    Mr. Lieu. And I'm going to read to you recommendation 29, 
which says, ``We recommend that, regarding encryption, the U.S. 
Government should fully support and not undermine efforts to 
create encryption standards; not in any way subvert, undermine, 
weaken, or make vulnerable generally available commercial 
software; and increase the use of encryption and urge U.S. 
companies to do so in order to better protect data in transit, 
at rest, in the cloud, and in other storage.''
    Do you agree with that recommendation?
    Mr. Ozment. Sir, the issue of encryption is a really 
challenging one. And as administration officials have 
highlighted a number of times, we have to weigh the balances of 
our law enforcement and counterterrorism needs with our desire 
and need to improve cybersecurity across the private sector and 
government. So we are calling for a national conversation on 
this topic so that we can plot a way forward together 
essentially.
    Mr. Lieu. So do you agree or disagree with recommendation 
29?
    Mr. Ozment. I think it is more complicated than one can 
simply agree or disagree to. I think we do--it is a decision--
--
    Mr. Lieu. Let's be pretty specific. Do you believe that the 
U.S. Government should not in any way subvert, undermine, 
weaken, or make vulnerable generally available commercial 
software? Do you disagree with that?
    MrOzment So, sir, I think in the--there's a lens here that 
any attempt--there are some people who perceive that any 
attempt to have court-ordered access to devices would be viewed 
as weakening software. If that's what you're referring to, 
that's really where I do think we need to have a national 
conversation to figure out what are our goals as a Nation.
    Mr. Lieu. I'm going to, with the permission of the chair, 
enter this document into the record. I just note that this 
document was really written from the angle of U.S. national 
security, and I think the proper frame for this debate is there 
is apparently some disagreement within the administration 
between law enforcement and U.S. national security. And my own 
view is we should not sacrifice U.S. national security, nor our 
economy, so that some law enforcement investigations can be 
made easier.
    Now, let me ask you another question. Are you familiar with 
Signalling System No. 7 in a cell phone network, also known as 
SS7, and the flaws associated with it?
    Mr. Ozment. Yes.
    Mr. Lieu. And as you may know, hackers of foreign 
governments that can exploit SS7 can listen to phone 
conversations of cell phones as well as acquire text messages 
in real time. Do you agree with that?
    Mr. Ozment. There are vulnerabilities that allow those 
accesses. Yes, sir.
    Mr. Lieu. Do you have a recommendation how to fix that?
    Mr. Ozment. These vulnerabilities were really first 
publicly highlighted in 2014. I think it's important to note 
that they are design vulnerabilities. So essentially, as the 
system is designed, you cannot fix it, per se. What you can do 
is carriers can monitor their networks for suspicious activity 
and then block that suspicious activity.
    When these vulnerabilities were disclosed, we reached out 
immediately to the carriers. We are not a regulator. We do work 
with the carriers through a voluntary partnership. The carriers 
have assured us that they are taking this seriously and are 
looking for malicious activity.
    But, frankly, I do share your very deep concern about this 
and I was concerned by the fact that the hackers you 
collaborated with on ``60 Minutes'' were so readily able to 
exploit that network. And so we are using this opportunity, 
frankly, to reach back out to the carriers and really push them 
to highlight progress.
    Mr. Lieu. Thank you. Would you agree that if a person using 
a cellphone had end-to-end encryption for the text messages or 
end-to-end encryption for their voice data, that that would 
mitigate this problem?
    Mr. Ozment. It would mitigate some aspects of this problem. 
If that were implemented, the other aspects, such as the 
ability to track location, would not be impacted.
    Mr. Lieu. Got it. Thank you.
    I forget, Mr. Chairman, if I requested to enter this into 
the record? Did I ask that? Maybe I did.
    Mr. Hurd. Without objection.
    Mr. Lieu. Okay. Thank you. And with that, I yield back.
    Mr. Hurd. Dr. Ozment, how long have you been at DHS?
    Mr. Ozment. I have been at DHS for approximately 2 years 
now.
    Mr. Hurd. Well, I would like to thank you for your service. 
I know the job that you have is difficult, and I think you have 
had an exemplary time at DHS, and I'm looking forward to 
continuing to working with you in the next few months.
    My question, I would like to drill down on the Juniper 
breach. The ScreenOS, there were several versions that were 
hacked, 6.30 version 17 through version 20. Were any of the 
versions that were vulnerable to the breach, were they 
supported by Juniper? Were security patches supported by 
Juniper, are you aware?
    Mr. Ozment. I'm not entirely sure. I believe that at least 
a number of those were out of service and no longer supported, 
certainly not all of them.
    Mr. Hurd. So when something is out of service, that means 
the vendor does not provide patch updates, or this is saying, 
``Hey, you are operating on your own. We are not responsible 
for keeping this up to speed.'' Is that correct?
    Mr. Ozment. That's correct.
    Mr. Hurd. Mr. Bhagowalia, my question for you. Fifty-seven 
devices had the Juniper vulnerability. Is that correct?
    Mr. Bhagowalia. Yes, sir, they were affected by the release 
versions in question in the ScreenOS, yes.
    Mr. Hurd. And do you agree that the vulnerable versions of 
the ScreenOS software that is provided by Juniper is not 
supported by a vendor, the security updates were not supported 
by the vendor?
    Mr. Bhagowalia. We didn't know about whether it is 
supported by the vendor, but we, obviously, the moment we got 
the information----
    Mr. Hurd. No, no, look, I'm not questioning about the--we 
can talk about the four devices that you thought were low 
vulnerability. My question is, why were you using versions of 
Juniper software ScreenOS that was no longer supported by the 
vendor? And if I'm not mistaken, please correct me if I'm 
wrong, the vendor stopped supporting that software in 2014, 
2013, 2014. Why was the Department of Treasury still using 
software that wasn't being supported by the vendor?
    Mr. Bhagowalia. I would have to get back to you on the 
exact details as to how many of those devices were late on that 
version that was not supported with 2014. We, obviously, work 
continuously with not only DHS, but with the vendor itself----
    Mr. Hurd. Well, but DHS doesn't have anything to do with 
supporting----
    Mr. Bhagowalia. Yes, sir.
    Mr. Hurd. --patching for a software.
    Mr. Bhagowalia. No, it doesn't, but we are sharing----
    Mr. Hurd. And the vendor has made it very clear that they 
are not going to continue to support that software. So what are 
you working with the vendor on?
    Mr. Bhagowalia. The vendor usually works with us to kind of 
figure out if there are any challenges with particular versions 
of software and so on and so forth. We have not looked at it or 
been advised of any particular devices there that were behind. 
But nevertheless the point is, we should, obviously, be----
    Mr. Hurd. You are the CIO for Treasury, correct?
    Mr. Bhagowalia. Yes, sir, I am.
    Mr. Hurd. How much software are you using in the Department 
of Treasury that is not supported by a vendor?
    Mr. Bhagowalia. We keep tabs on a lot of the legacy 
versions, that is----
    Mr. Hurd. Do you have a number? How many systems are you 
running----
    Mr. Bhagowalia. We have 329 systems, sir, overall in 
Treasury.
    Mr. Hurd. Okay. And how many of the 329 systems that you 
are running are systems provided by a vendor that is no longer 
supporting that version of the software that you're using?
    Mr. Bhagowalia. It's a small percentage. I'll have to get 
back the exact number.
    Mr. Hurd. Please get back with a specific number.
    Mr. Bhagowalia. Yes, sir, I will. Yes, sir.
    Mr. Hurd. Threat mitigation--threat assessment--or damage 
assessment is probably the most accurate number--of the 54 
systems that were using the Juniper's software ScreenOS, what 
did the hackers, attackers, have you done a damage assessment 
on what was possibly stolen?
    Mr. Bhagowalia. Yes, we've obviously looked at the devices, 
and which there were two versions. Obviously, one had the 
administrative access and one had the VPN. We looked at both of 
those devices and seen whether there was anything going on in 
those devices themselves. We looked at the risk analysis of 
that. We also, obviously, made sure that those devices did not 
have any lateral movement and other things like that.
    We're doing more in this area. We're putting some other 
countermeasures just to double-check, for example, using third 
parties to see if there's anything else going on in there.
    Mr. Hurd. So you identified 17 of the 56 systems as high 
threat? Is that correct? Fourteen?
    Mr. Bhagowalia. No, sir, 40 of the devices, out of an 
overabundance of caution, we put at high risk. Only 4 out of 
the 57 were really connected facing the Internet. The rest were 
internal facing.
    Mr. Hurd. Of those four that were facing the Internet, what 
kind of systems--what kind of information was traversing those 
systems?
    Mr. Bhagowalia. So one was--it was like, for example, it 
was on an isolated Internet connection at one of the locations, 
like Mint. Another location----
    Mr. Hurd. Right. So the Mint, like where we make money?
    Mr. Bhagowalia. Yes, sir, but it was not connected to the 
corporate LAN. It was sitting outside in a public-facing sort 
of Internet.
    Mr. Hurd. But it's still connected to the Internet, right? 
So are you implying that that's not a significant 
vulnerability?
    Mr. Bhagowalia. No, sir, we don't. We take cybersecurity 
very seriously.
    Mr. Hurd. So in your damage assessment, who did you think 
potentially took this information?
    Mr. Bhagowalia. Well, there was no information that we are 
aware of that has been taken, and we have looked at it very 
carefully. We, obviously are obviously concerned if there's 
anything that's an external attempt. But there were multiple 
layers of security in terms of what we were watching. And out 
of the version that we had, nothing was taken.
    Mr. Hurd. So you don't think anything was taken. But based 
on this vulnerability, you don't have to exfil data, right? If 
you're able to read--if you're able to decrypt encrypted 
information, then if you're capturing that encrypted network, 
the encrypted traffic traversing the network, you don't have to 
exfil it. So how would you know if something was taken or not?
    Mr. Bhagowalia. So, for example, the four devices that are 
in question, they do not participate in the VPN connection at 
all. So there's no risk to that. So even if that was taken out, 
there was no issue there.
    They are connected between three levels of firewalls, in 
addition to what's already at Juniper. They are configured in 
such a way without giving the configuration away. Since admins 
have special access to that, we were pretty confident, and we 
did a detailed risk analysis, and that's why we took a little 
bit of time to kind of, to your question, to really look into 
detail and make sure there's nothing going on.
    We absolutely appreciate a concern. We've also read your 
article, and we also know that this vulnerability was quite 
serious. We looked at it, and there was nothing that we can 
see. But we're also going further and making sure that we're 
bringing in other experts. And so far one of the vendors--one 
of the vendors who was going to be briefing today, Mandiant, we 
think is very, very good, is one of the other folks, and 
amongst others, that we're looking at bringing in.
    Mr. Hurd. Well, my time has expired, but there will 
definitely be several more rounds of question.
    I would like now to recognize the gentleman from Virginia, 
Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman, on what is, I think, 
one of the most important topics we can be addressing here in 
Congress with respect to our future.
    Mr. Taylor, can you explain what the Consular Consolidated 
Database is, briefly?
    Mr. Taylor. Thank you for the question, sir. Briefly----
    Mr. Connolly. Well, because I've only got 5 minutes.
    Mr. Taylor. I appreciate that, sir.
    The Consular Consolidated Database is a number of 
databases, actually. I think the total is around 18. It handles 
various activities, such as visa issuance, passport issuance, 
and that sort of thing. It manages our consular workload.
    Mr. Connolly. So hundreds of millions of records?
    Mr. Taylor. Hundreds of millions of records, sir.
    Mr. Connolly. Hundreds of millions of records. Would you 
agree, Mr. Taylor, that makes it a juicy cyber target?
    Mr. Taylor. We've identified it certainly as a target and 
as a critical system for the Department.
    Mr. Connolly. And on March 31 of this year there was a 
report that an internal review revealed lots of vulnerabilities 
in the CCD? Is that correct? There was an ABC News report that 
said you did.
    Mr. Taylor. Right. The ABC News report was referring to, 
sir, the process that we go through for all our significant 
systems, which is penetration testing and a host of other types 
of tests that we run against our system on a regular basis. So 
through that process, yes, in fact, we identified 
vulnerabilities. That's the point and purpose of the 
penetration testing. And we're well on our way to reconciling 
those and remediating it.
    Mr. Connolly. In response to the ABC story, the Department 
officially sort of took issue with those reports on the 
severity of the vulnerability and referred to it, the 
vulnerability of the CCD, as in the lowest threat category.
    Can you put that in perspective? I mean, how many 
categories are there at the State Department in terms of 
threat, cyber threat?
    Mr. Taylor. If I could, sir, I'd rather try to answer the 
question through the way we look at risk mitigation, and that's 
to look at the probability as well as the potential damage 
associated with the threat.
    The probability was very low, but, obviously, clearly, 
given the type of private information that's available on that 
system and the quantity, even with a low risk, we take that 
very, very seriously. In fact, I mean, we meet on this on a 
weekly basis with the under secretary and with the deputy 
secretary and with the senior leadership in Consular Affairs to 
track the progress against our remediation efforts.
    Mr. Connolly. Okay. Well, the reason I think it's important 
is because one of the concerns I've got with respect to cyber 
throughout the Federal Government is you look for--if I were a 
hacker or up to no good, I'd look to low-hanging, vulnerable 
fruit. And we, this committee, this subcommittee, has found 
lots of that in what might look ostensibly like an attractive 
target, Department of Education. Huge database, lots of 
information in it, and potentially ripe for the picking. Which 
is why we think implementation of FITARA is so important and 
because we've got to sharpen up our ability and make wise 
investments and so forth.
    Let me ask you while I've got you, Mr. Taylor, I've just 
gotten back from China, and on this particular trip there were 
probably 20 Members of Congress, Senators and House Members, 
Republicans and Democrats.
    I mean, everybody was told when we got there, you do 
understand that any device you bring will be compromised, 
period. Is it routine for the Department of State to provide 
counsel to Members of Congress when they're traveling to places 
that have a known reputation with respect to cyber?
    Mr. Taylor. Thank you, sir, for the question.
    I understand the question, but to be honest, it's a little 
outside of my wheelhouse. I'm not sure if those briefings take 
place. I would expect that Congress would receive those 
briefings either through our Diplomatic Security or another 
entity in State. It really isn't within the purview of the CIO 
responsibilities to do that.
    Mr. Connolly. I mean, you work for the State Department.
    Mr. Taylor. I do, sir.
    Mr. Connolly. Yeah. Well, maybe you can take it back with 
somebody whose purview it is.
    Mr. Taylor. Yes.
    Mr. Connolly. But it just worries me that a whole branch of 
government is unwittingly putting itself at risk. And remember 
I've got messages here from the State Department, from the 
White House, from lots of other Federal agencies, all of which, 
if I bring this to Beijing, is going to be compromised.
    Mr. Taylor. Yes, sir.
    Mr. Connolly. And it just seems to me a prudent measure for 
the executive branch to--if it isn't--to be more proactive in 
not only discouraging, but strongly providing guidance, quite 
explicit guidance, to Members of Congress, rather than having 
it be on our own. I mean, what could go wrong with 535 
individuals and their spouses traveling hither and yon with 
devices that are official that could be compromised?
    Mr. Taylor. Yes, sir.
    Mr. Connolly. It might be outside your purview, Mr. Taylor, 
but we both work for the U.S. Government and are concerned 
about U.S. security, and we're talking about cyber, and this is 
a big issue I think in your wheelhouse. So I would appreciate 
your cooperation in going back to whoever's purview it is in 
the Department and maybe beefing up our protective preemptive 
measures.
    Mr. Taylor. Yes, sir. I understand the question, and I will 
certainly take that back.
    Mr. Connolly. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hurd. Thank you.
    Now I'd like to recognize Mr. Blum for 5 minutes.
    Mr. Blum. Thank you, Chairman Hurd.
    And I'd like to thank the panelists for appearing here 
today to talk about this most important issue.
    Mr. Barger, in your testimony you state that information is 
less a technical issue and more of a cultural issue. To me, 
this gets at the very importance of building trusting 
relationships. I'm from the private sector and trust is so 
important. Without trust, it's hard to run an effective 
business, trust between employer and employee, trust between 
the company and its vendors, trust between the company and its 
customers. Trust to me is ultra-important. And it gets to the 
importance of your statement of building trusting relationships 
between parties to ensure effective information-sharing 
practices.
    In your opinion, is there a trust deficiency between the 
private sector and the public sector when it comes to the 
sharing of threat intelligence?
    Mr. Barger. In terms of efficiencies, I believe sharing in 
general within public sector as well as within the private 
sector is still somewhat new, and everyone's feeling around the 
edges to figure out how to best approach it. I think the 
Information Sharing Act of 2015 kind of helped break the ice 
and give folks a renewed interest and focus in that area.
    In terms of private sector sharing, we find organizations 
are still challenged internally with communicating effectively, 
let alone some of the more advanced moves of sharing across 
parties or Bank A sharing with Bank B. But there's interest to 
get there.
    I think DHS and some of their initiatives are good starting 
points where there's a centralized area where folks can go. The 
private sector has a thirst for information, and so as much 
information you can send our way is always appreciated.
    Mr. Blum. There is a willingness in the private sector, I 
agree, and I hear that time and time again. Is there something 
the government, the public sector, can be doing to help 
facilitate this? Because there is that willingness, I agree 
with you.
    Mr. Barger. I think timeliness of reporting can help. I 
think there's optics and perceptions as to how much value 
information is coming out of the government in terms of the 
flash to bang. There's many cases where the private sector will 
be a little--a few steps ahead of the government in terms of 
sharing some information, and then several weeks or months 
later you'll get an FBI flash bulletin or a DHS report which 
echoes some of the same details you already know.
    However, there's also instances where, like I pointed out 
earlier, where the information that may come out of DHS or FBI 
will serve as a feed or will shore up a loose end that the 
private sector may have not have necessarily figured out or 
understand fully, but that then fills in some of the blanks.
    Mr. Blum. I hear from the private sector also sometimes the 
government is viewed as a black hole. And they deploy a fair 
number of assets, time, people's talent, to obtain information, 
share it with the government, and never hear back, never hear 
back. And that to them is a problem, and I'd say it probably is 
a problem. You know, was the problem resolved? Was it helpful 
or not? They just want to hear back.
    Any ideas there on what we can do to have a two-way 
communication street here versus, ``Give me, give me, give me, 
and, hey, don't ask what happened with it''?
    Mr. Barger. Correct. I am part of that group of folks who 
shared information into the black hole, if you will, and have 
wondered, was this effective, do you need more? But what 
happens is over time, when you don't hear back, you just say, 
really, what's the point of me continuing this if I don't 
really see the value?
    Mr. Blum. Exactly. Exactly.
    Mr. Barger. So having a thumbs-up or a thumbs-down or quick 
``got it'' is always helpful and I think lends to what you're 
talking about is improving that sharing relationship and that 
trust.
    Mr. Blum. Very good.
    I'll yield back the balance of my time, Mr. Chairman.
    Mr. Hurd. I'd like to recognize Mr. Lieu for another round 
of questions.
    Mr. Lieu. Thank you, Mr. Chair.
    Question for Mr. Barger, sir. Are you familiar with the SS7 
flaw?
    Mr. Barger. I am not.
    Mr. Lieu. Okay. That's fine. I will now go to Mr. Ozment.
    In February of this year, The New York Times published an 
article quoting Defense Secretary Ash Carter, and he is quoted 
in there regarding back doors as saying the following: ``Just 
to cut to the chase, I'm not a believer in back doors or a 
single technical approach. I don't think it's realistic.'' Do 
you agree with his statement?
    Mr. Ozment. I think part of the challenge here is an 
argument about what constitutes a back door or not. You know, I 
think what I have heard from law enforcement agencies is that 
they hope for a solution that allows them court-ordered access 
without introducing vulnerabilities. I think if you are to 
enter----
    Mr. Lieu. Let me just stop you there.
    Do you believe it's technologically possible to put in a 
back door only for the good guys?
    Mr. Ozment. I think there are solutions that add--that make 
that possible.
    Mr. Lieu. Just give me one.
    Mr. Ozment. However, to get to our point, I think any time 
you add a solution, you add complexity. And every time you add 
complexity, you increase the risk of compromise.
    Mr. Lieu. Thank you.
    Do you know how many smartphones were lost or stolen in the 
U.S., let's say, in 2013?
    Mr. Ozment. I do not.
    Mr. Lieu. Okay. According to an article in the LA Times, 
about 4.5 million smartphones were lost or stolen.
    If hackers could hack into a smartphone, they could access 
all sorts of data on Americans. Wouldn't you agree that it 
would be important that if government finds a flaw in 
smartphone encryption that they let the manufacturer know about 
it so we can protect American consumers if their cell phones 
are lost or stolen?
    Mr. Ozment. There is a process for deciding whether or not 
to disclose vulnerabilities that the government finds. My 
organization's role in this process is to advocate for the 
broad sharing of vulnerabilities, because that does increase 
the cybersecurity of our Nation.
    There are other perspectives that have to be viewed in that 
process, law enforcement intelligence perspectives, but the 
administration has gone on record to highlight that the 
process, the strong default, is to share information to 
increase the security of devices and systems.
    Mr. Lieu. So through this process the way the FBI was able 
to hack the recent iPhone in the San Bernardino case, that may 
be released to Apple at some point. Am I understanding that 
correctly?
    Mr. Ozment. If the FBI did, in fact, use a vulnerability it 
would go through this process and could potentially result in a 
release. But I don't know of the specifics of this, whether or 
not the FBI used a vulnerability in this case, so I would have 
to defer to the FBI on that.
    Mr. Lieu. Thank you.
    Before I forget, Mr. Chair, could I enter into the record 
this article, ``4.5 million smartphones were lost or stolen in 
the U.S. in 2013,'' from the Los Angeles Times?
    Mr. Hurd. Without objection.
    Mr. Lieu. Thank you.
    Mr. Barger, let me ask you a similar question. Do you agree 
with Defense Secretary Ash Carter's statement that we should 
not have back doors in encryption?
    Mr. Barger. I think that, again, introduces a very complex 
conversation. I think that we need strong encryption. As a 
member of industry, I would be very concerned and challenged, I 
guess, with any sort of approach by the government to weaken 
anything or weaken security or encryption of any sort of 
product or solution that we delivered. So I would say no.
    Mr. Lieu. Thank you.
    And with that, I yield back.
    Mr. Hurd. Mr. Farenthold from Texas is recognized for 5 
minutes.
    Mr. Farenthold. Thank you very much.
    I would like to follow up on a line of questioning the 
chairman had about legacy systems. We talked about some of the 
legacy and unsupported systems in the IRS. We've had hearings 
where various government agencies are still running pre-Windows 
98 or Windows 98, again, not supported by Microsoft, the 
security patches are not coming up.
    Dr. Ozment, do you have any idea the scope of this problem?
    Mr. Ozment. I think this is a major problem for the Federal 
Government. It's something that is concerning to me.
    I'll tell you that we do scan agencies externally, so the 
systems they have connected to the Internet, and we look for 
critical vulnerabilities. We do consider an unsupported device 
to be a critical vulnerability.
    And some of our most challenging discoveries in that 
process are unsupported devices, particularly at smaller 
departments and agencies who may lack the resources or the 
expertise to upgrade these very legacy systems. I think this is 
a major risk for the government. And I do believe that any 
approach that we can take to upgrading and replacing legacy 
systems is a good approach.
    Mr. Farenthold. And the National Institute of Standards 
publication 800-40 lays out guidance for agencies on enterprise 
patch management and states that it would be, quote, ``ideal'' 
to deploy patches immediately so as to minimize the timeframe 
systems that are vulnerable. You know, obviously, immediately 
isn't possible. We've got a couple--we've got the State 
Department and Treasury Department here. How good are you guys 
at getting this out? I mean, what is immediately for you? A 
security patch comes out, how long does it take you to get it 
out, Mr. Taylor?
    Mr. Taylor. So our security patches, we look at it two 
ways, critical threat patches and typical required patches. So 
for our critical patches--we begin immediately, I want to be 
clear about that--we have a 3-day timeline to deploy a patch 
worldwide, to all locations worldwide. We meet that with 
approximately 98 percent success rate.
    Mr. Farenthold. And how are you all doing at Treasury?
    Mr. Bhagowalia. We obviously take the most critical patches 
first, sir, and we move on it. And as you saw in my testimony, 
we fix those in 5 days, 6 days. For the rest of the enterprise, 
we work with the bureaus to make sure those critical patches go 
first. As far as the medium and low patches, they take a little 
bit more time. And we also are, obviously, looking at 
operational risk, making sure those systems are a continuing 
mission. And then we schedule that, and then the report, the 
bureau CIO's report, back to us.
    So the answer is it's ongoing. As to exact numbers, I can 
get back to you and give you the exact numbers.
    Mr. Farenthold. All right.
    And, Dr. Ozment, in May of 2015, it's my understanding that 
the Secretary issued a binding operational directive requiring 
all agencies to mitigate critical vulnerabilities on their 
Internet-facing devices within 30 days. That seems like an 
awful long time to me, but before I go criticizing how long it 
is, how much success do we have getting them done in 30 days?
    Mr. Ozment. I would agree with you that it is a somewhat 
generous amount of time. I would highlight that, to the points 
that my colleagues have made, the criticality of the patch and 
the type of system will dictate timing. There are systems that 
are more complicated than your normal desktop operating system 
that do take additional time. And since we were doing a one-
size-fits-all policy, we had to be somewhat generous.
    Even with that somewhat generous timeframe, when we 
started, when we released this directive, there were over 360 
Internet-facing systems with critical vulnerabilities in them. 
I view that as the backlog, what we started with, because of 
course new vulnerabilities are discovered all the time.
    We reduced that backlog, not as rapidly as I would like for 
the government to have reduced it, but we are now down--we 
have, obviously, eliminated that backlog. Even right now we 
have 39 vulnerabilities across the government that are critical 
but have been unpatched for more than 30 days. There is good 
news in that, which is when we started we were over 360, and, 
clearly, not enough attention was being paid on it.
    Mr. Farenthold. I mean, are these some obscure operating 
system or ultracomplicated software or are we just not running 
Windows update?
    Mr. Ozment. The majority of these are now legacy systems at 
small agencies that are struggling to manage their IT and to 
find the budget to replace these legacy systems. These have 
been the toughest nuts for us to crack.
    Mr. Farenthold. All right. I am loathe to ask what you 
think Congress could do to help with that, because I suspect 
the answer will be: Give us more money. But is there something 
besides give us more money that we can do in Congress? And then 
I'll yield back after your answer.
    Mr. Ozment. You know, I would like to highlight that 
Congress has been incredibly helpful to date. The recent 
legislation passed in both 2014 and 2015 has been very 
important. This type of attention is very important.
    I do think that one of the challenges that agencies 
consistently have is when you replace a legacy system, you 
often have to operate that system for a period of time even as 
you're paying to build the new system. So you do functionally 
need to pay for two things at once for a period of time.
    The IT modernization bill sponsored in part by 
Representative Kelly, the ranking member, would really assist 
with that, because it would essentially give you that fund to 
temporarily support the building of a second system even as you 
operate the original, older system.
    Mr. Farenthold. Thank you.
    I yield back.
    Mr. Hurd. The ranking member from Illinois is recognized 
for 5 more minutes.
    Ms. Kelly. Thank you.
    Mr. Bhagowalia----
    Mr. Bhagowalia. Yes. Yes, ma'am.
    Ms. Kelly. --Mr. Taylor, this question is for both of you. 
As the people with ultimate responsibility for the security of 
your agencies' computer networks, I imagine that you would 
welcome any information that would help you with cyber defense. 
If a company that plays a critical role in your agencies' 
mission was hacked, would knowing how that hack happened help 
you to do your job?
    Mr. Bhagowalia. Yes. We work with a lot of vendors, and we, 
obviously, work very closely with them. I believe the cyber 
climate, the way things are in the prevailing world, we work 
together as a team and we look out for each other. We are all 
in the boat together. And that's the way we want to manage 
this.
    We share information also across not only the government, 
not only with DHS, but with the law enforcement and the 
intelligence community. I myself Came from the law enforcement 
intelligence community. And I can tell you that--and I have 
come from industry--we are in a different world now, and the 
adversary is growing in sophistication, volume, brazenness, and 
impact and frequency.
    So if that's the case, the only way we can do this together 
is to work together and make this thing happen. So absolutely, 
ma'am.
    Ms. Kelly. Mr. Taylor.
    Mr. Taylor. Thank you for the question.
    Partnership is the basis of our cyber defense. We learned 
that in 2014 when we had our challenges with our unclassified 
email. We reached out to DHS. We reached out to NSA. We get 
wonderful support from the FBI. We support and established a 
joint operations center for cyber. So we have folks from 
interagency there sitting with us 24/7, 7 days a week, 365 days 
a year.
    We receive threat and mitigation information from just a 
host of partners. It would not be possible for the Department 
of State or any other agency to successfully defend our systems 
without support, without continuing information, both threat 
information and mitigation information, private sector and 
public. We recognize that. As I said, that's a keystone for us.
    Ms. Kelly. What means do you have--and this is for both of 
you--to learn about the details about a hack of one of your 
contractors? How do you learn about that?
    Mr. Bhagowalia. We work very, very closely, first of all, 
with our vendors in terms of our governance, that they have to 
tell us what's going on, and I think in that regard, we watch 
that. We monitor classified and unclassified channels, 
including vendor community, from our security operations center 
that looks for that. We work with the US-CERT, NCCIC, and DHS, 
who gives information to us. We work on the Federal CIO Council 
where we are all sharing information as a sort of a network of 
CIOs and also CISOs.
    We also work within our folks and our staff who have sort 
of an organic network. And I don't want to underplay the 
importance of that organic network that's looking and looking 
out. So I think we're doing a pretty good job there.
    Ms. Kelly. And, Mr. Taylor, you would agree with----
    Mr. Taylor. Absolutely. We actively maintain our 
relationship with our vendors. I travel regularly, we meet with 
them regularly.
    Ms. Kelly. Okay. Thank you.
    Ms. Ozment, just two quick yes or noes. Are government 
contractors required to share detailed forensic analysis about 
attempted or successful cyber attacks, yes or no?
    Mr. Ozment. Not in general. There may be some specific 
contracts where that's required.
    Ms. Kelly. Okay. Are government contractors required to 
notify the FBI if they are the victims of a successful cyber 
attack? Yes or no?
    Mr. Ozment. Again, not in general. There may be specific 
contracts.
    Ms. Kelly. Are there examples where US-CERT has offered its 
services to government contractors who were hacked and the 
company declined the offer?
    Mr. Ozment. Not to my knowledge. I don't believe so.
    Ms. Kelly. Okay. All right then.
    Thank you. And I yield back.
    Mr. Hurd. Mr. Bhagowalia, some very basic questions, and I 
apologize for not knowing the answer to this.
    At Treasury, what floor does the Secretary of Treasury sit?
    Mr. Bhagowalia. Main Treasury, third floor, sir.
    Mr. Hurd. And where do you sit?
    Mr. Bhagowalia. I sit in one of the buildings next to the 
Main Treasury.
    Mr. Hurd. Do you have budgetary and operational control? 
I'm assuming there's a CIO specifically for IRS, right?
    Mr. Bhagowalia. There's a separate CIO for IRS, sir.
    Mr. Hurd. Does that person report to you?
    Mr. Bhagowalia. No, he does not. Reports to the 
Commissioner. But he has a dotted line under FITARA that I have 
given him some CIO commitments that he has to report with me 
and work with me.
    Mr. Hurd. But isn't part of FITARA to empower you to have 
control over the entire organization?
    Mr. Bhagowalia. Yes, sir. The Department has the authority, 
and I'm working very closely with the bureau's CIOs to make the 
mission happen.
    Mr. Hurd. CDFI, what is that?
    Mr. Bhagowalia. It's one of the consolidated funds that is 
a smaller program that sits within the departmental offices.
    Mr. Hurd. So earlier this year or late last year, we sent a 
letter, this committee sent a letter to every agency asking for 
an update or asking for a review of legacy hardware and legacy 
software. And thank you, you get back to us. And I know I asked 
a question earlier about old systems. I have eight pages worth 
of information. Some of the software, when we asked when was 
the last date of support, the answer was ``unknown'' because 
the vendor is no longer in business.
    Some of the other software stopped being supported in 2007. 
And then we asked the question: If no longer supported by 
vendor, how is it supported? The reply was: Unsupported, IRS 
assumes expired product risk.
    Now, I'm not going to go through each one of these. But my 
question is, do you, as the CIO of Treasury, have the authority 
to go through, identify which one of these are high risk, and 
figuring out why and moving away from unsupported software?
    Mr. Bhagowalia. Yes, the bureau CIO and I do, I have the 
authority, and we look at using what they call critical POAM 
item, and they have to report to me as to whether they are 
testing and is there enough security, that there's any 
vulnerability, if there's anything critical. And they have 
signed to that and I can--I, obviously, check and verify that. 
If they have not done that, I have the authority to turn it off 
and so do they. And, obviously, this particular system I'll 
have to take a look at----
    Mr. Hurd. No, look, we're going to get into a much larger 
conversation at some other point about this. But some of these 
systems that stopped being supported in 2013 deal with software 
to manage cell phone communications, right? So this is--to me, 
that would be a high priority vulnerability or a system that 
should be of high priority to ensure that--and, again, the 
Federal Government shouldn't be in the business of providing 
support to products. We should be upgrading and buying the 
latest version. So I'm more interested in making sure you have 
the authorities in order to solve these problems.
    Dr. Ozment, how much, you know, with the new cybersecurity 
rules that DHS has, how much influence do you all have in 
telling another department or agency, ``Hey, guys, you all need 
to sort this out''?
    Mr. Ozment. The new authorities that Congress has provided 
us and, frankly, the congressional attention on this issue have 
really dramatically helped us more deeply engage with 
departments and agencies. We focus on working collaboratively 
with those departments and agency, essentially because when 
they trust us, we can accomplish more together. And we also 
look at OMB holding agencies accountable. And together, we 
really work to improve----
    Mr. Hurd. Dr. Ozment, do you have a list of all the 
unsupported software that's being used across the 24 CFO 
agencies?
    Mr. Ozment. I do not, but I'll be honest with you, I want 
that--I will have that when CDM phase one is deployed.
    Mr. Hurd. Copy.
    Mr. Ozment. And I want an automated list of that. I don't 
want a manual data----
    Mr. Hurd. Good. Copy.
    Mr. Barger, should enterprises be concerned with using 
software that is no longer supported by a vendor?
    Mr. Barger. They should. Unfortunately, organizations over 
time will set up systems that just become systems of record, 
that they just cannot pull these systems out, that they age 
within the organization, both within public and private sector. 
It's not just one sector or the other. So it's a very hard to 
necessarily pull them out. If you consider some medical devices 
are FDA regulated, so if you were to patch them, in some cases 
you change that regulation.
    And so there's these very nuanced details in accepting risk 
in and around these nuanced systems of record that could be 
supporting command and control or medical systems. And so there 
can be creative workarounds that are put in place, be it 
policies or solutions, that can help manage that risk a little 
better.
    Mr. Hurd. No, thank you for that.
    And my next question kind of shifting gears slightly. Can 
you do--can an enterprise do proper damage assessment without 
understanding who the threat actor was?
    Mr. Barger. So as a former analyst, I am always 
appreciative of as much information as possible so that I can 
use that and form the basis to make better decisions. So I 
think maybe to your point around attribution, that sort of 
information, always helps to understand what the adversary's 
motivations are, because that can frame how I respond and 
subsequent decisions down the line, be it technical or 
nontechnical type response.
    Mr. Hurd. So would this be a fair statement, that 
understanding who the attacker is, we would better--we can do 
better damage assessment?
    Mr. Barger. Absolutely. It's an integral part. I mean, one 
of the first questions everybody asks when you're the bearer of 
bad news and there's a breach is: Who did it? Or why? The boss 
always wants to know that. And so understanding that can, 
again, help frame how you respond and the decisionmaking cycle 
afterwards.
    Mr. Hurd. When it comes to the Juniper ScreenOS breach, do 
you have opinions on who was responsible?
    Mr. Barger. These are personal opinions and not necessarily 
rooted in fact, but just reading, casually reading----
    Mr. Hurd. The record reflects that.
    Mr. Barger. Roger. Okay. So if you look at the type of 
vulnerabilities potentially introduced for the term in which 
they're reporting that, I could think of a handful of nation-
state entities that would leverage key weakening and an 
administrative back door for core infrastructure. And that core 
infrastructure is kind of one of those more strategic areas of 
the domain, if you will, the contested domain, that if you lay 
up in there, you can do quite a bit in terms of----
    Mr. Hurd. So let's talk about the nature of the Juniper 
ScreenOS breach. Source code was manipulated, correct?
    Mr. Barger. From what I understand, correct.
    Mr. Hurd. And code was inserted in the source code used for 
ScreenOS. Is that your understanding?
    Mr. Barger. From what I understand, correct.
    Mr. Hurd. How difficult is it to do that?
    Mr. Barger. I would imagine if it were, for me, putting on 
a bad guy hat, that I would have to have a significant 
understanding of how that system works as well as a very robust 
quality assurance capability to make----
    Mr. Hurd. But when you're designing software protecting--
ensuring that your source code cannot be seen, is a pretty--
that's a pretty key--that's a key software development.
    Mr. Barger. Correct. That's what I was driving at, is that 
there had to have been a robust team that would be able to make 
sure that that implant or that key weakening was not detected 
for the term that's being reported.
    Mr. Hurd. Could Juniper have protected its source code 
better?
    Mr. Barger. I don't know enough about their development 
process and their internal security to be able to say that, 
but----
    Mr. Hurd. So based on your experience and your--this is 
your personal observation--it was a state actor--it was an 
entity supported by a nation-state?
    Mr. Barger. I would certainly think that a criminal or 
ideological group probably wouldn't have necessarily the 
resources or the motivation to leverage that type of attack.
    Mr. Hurd. Why are--and maybe, Dr. Ozment, this is a better 
question directed to you--who is responsible in the Federal 
Government for attribution?
    Mr. Ozment. We look to the intelligence community, so the 
Director of National Intelligence for attribution.
    Mr. Hurd. So DNI is the one responsible for making 
attribution. Even in a case when it's a breach of a private 
sector entity?
    Mr. Ozment. That's right.
    Mr. Hurd. But that private sector entity could make it 
aware, right? Because if a private sector company is hacked, 
they usually--they will bring in--they'll probably reach out to 
some Federal Government agencies, whether it's DHS--it should 
be DHS now, after the Cybersecurity Act of 2015. They're going 
to bring you in. They're probably going to hire another company 
that does incident response and threat mitigation. But are 
there barriers from having the company that's hacked from 
articulating who they believe was responsible for the breach?
    Mr. Ozment. No. Any company could point to anybody if they 
had a view on the perpetrator.
    Mr. Hurd. Why--and this is my opinion now--I feel like in 
this case of the Juniper ScreenOS hack people have been 
reticent to do attribution, even general attribution. Do you 
have an opinion on that, Dr. Ozment?
    And, Mr. Barger, I'm going to ask you the same question.
    Mr. Ozment. You know, I don't, other than to say that the 
government has historically been--has used attribution in a 
fairly relatively few cases. And so I don't view it as unusual 
that the government has not attributed this particular 
incident. That's it.
    Mr. Hurd. Copy.
    I will now recognize my friend from California, the 
distinguished gentleman, Mr. Lieu, for another round of 
questions.
    Mr. Lieu. Thank you, Mr. Chair.
    My understanding is that Juniper was invited to testify, 
but they refused to come. I just want to note for the record 
that I--well, let me first ask questions.
    Mr. Ozment, is Juniper a government contractor?
    Mr. Ozment. I don't know for sure. I would assume that they 
are. I do want to highlight that they're a victim here and that 
from our perspective we ask all IT vendors to give us advanced 
notice when they are making a major patch so that we can 
amplify their patch announcement and make sure that it reaches 
the public and private sector, that everybody who knows needs 
to know about it.
    In this case they did notify us in advance that they were 
developing a major patch. I think they did a very responsible 
job of this, and I salute them for working hard to make sure 
that all of their customers were aware of this vulnerability 
and helping us amplify their message as well.
    Mr. Lieu. I note for the record that Juniper had their 
systems breached. I find it disrespectful that they did not 
come here to testify and it insinuates that they have something 
to hide.
    So let me ask some questions for Mr. Bhagowalia. I'm trying 
to understand your agency's response to the breaches of 
Juniper.
    My understanding is that within 1 week, 48 out of 57 
affected systems on Treasury's network were patched. Is that 
correct?
    Mr. Bhagowalia. Yes, sir.
    Mr. Lieu. But for the other nine, it took, from my 
understanding, another 2 months. What's the reason that it took 
that amount of time?
    Mr. Bhagowalia. We made a risk-based decision, and we found 
that out of those devices--first of all, anything--only 4 of 
those 57 were Internet facing. Everything inside had many 
layers of firewalls. We found that of those devices, a certain 
amount had--did not even have the VPN vulnerability as such. So 
we looked at that and made a risk-based decision as one of the 
bureaus to delay the patch. And the others were mitigated in 
terms of compensating controls that they had in place. So it 
was done a little bit later.
    Obviously, in retrospect, one could look at balancing 
mission and risk, and we could have gone a little faster, but 
it was basically a low risk for the devices that were done 
after the first week.
    Mr. Lieu. So when I patch something on my computer it's, I 
don't know, a few minutes. Are these very complicated patches? 
Are these something that takes a long time? I'm trying to 
understand why it just wouldn't have been done rather quickly.
    Mr. Bhagowalia. Yes, sir. Let me just say, as an engineer, 
we obviously, obviously, look at first what is the risk 
analysis as to what the thing is. We understood the details of 
this once we were told what the thing was and exactly what the 
vendor was saying and what DHS told us. We went and looked at 
what the risk analysis is, is it in our network?
    We looked at where they were facing. A lot of these 
configurations, without giving them away, we have multiple 
layers of firewalls and protection and proxying and all kinds 
of various means that allows sort of a maze of things that we 
do to basically confuse anyone from getting in.
    And third, you know, five of those device didn't have the 
VPN vulnerability. So even if there was nothing to decrypt, we 
actually covered that.
    So it just, if you look at it in isolation, obviously, one 
can only always look at something being a little faster, but we 
always balance operational risk. Because think of it has a 
neighborhood, gated community, and then you get in, and then 
you've got multiple layers of firewalls and a backbone network 
that had one or two of these devices between many layers just 
to get into that. And beyond that, there were various firewall 
subdivisions and these were deeply imbedded inside those 
firewall divisions. So to get to those would require a lot of 
compromise before someone gets in.
    So we looked at that, and based on that, it was made--a 
risk-base decision was made. And in addition to that, I would 
just add that we are actively using other kinds of red teaming, 
should I say, penetration testing, and we are also looking at 
some hunt operations to make sure there's nothing in there. We 
are aware of some of these nation-states, and I think in this 
case we have not seen anything.
    Mr. Lieu. Thank you.
    Ms. Ozment, you're familiar with the ransomware attacks on 
hospitals, some of which were in southern California?
    Mr. Ozment. I am, sir.
    Mr. Lieu. And do you have a sense of how many hospitals 
have been hit with ransomware attacks in the last year or last 
few months?
    Mr. Ozment. I don't have those numbers in hand, but we have 
certainly seen an increase in ransomware, not just the health 
sector, but across the Nation.
    Mr. Lieu. If this is something we could follow up with your 
office to see if you could let us know about how many attacks 
we're experiencing?
    Mr. Ozment. Absolutely, sir. Will do.
    Mr. Lieu. Great. Thank you.
    And then let me just conclude with a comment.
    In this case, Juniper made firewalls to try to prevent 
important information from going to foreign governments. 
Juniper is not the victim in this case, as the witness from DHS 
had said. The U.S. Government and the American people are, and 
we need to view this in a whole different lens, that when 
products are made to try to protect the U.S. Government and 
they fail, the companies that made those products are not the 
victims. They failed. And I think we just need to put this in 
proper perspective. The victims here are the U.S. Government, 
the American people.
    Thank you.
    I yield back.
    Mr. Hurd. Thank you.
    Dr. Ozment, is DHS MPPD built and organized to deal with 
the problems of the future?
    Mr. Ozment. It is not, sir. And we have proposed a 
reorganization that we would very much appreciate support of 
the Congress in performing that reorganization.
    Mr. Hurd. And, again, I'd just like to point out, I think, 
when it comes to the Juniper breach, I think DHS played an 
important and key role in organizing the government's response 
to this.
    I still have a problem with attribution. And, Dr. Ozment, 
can attribution play a deterrence role?
    Mr. Ozment. I think it absolutely can. You know, depending 
on the circumstances, actual attribution could be used to play 
a deterrence role. In other circumstances the threat of 
attribution may play a deterrence role. I do think it depends 
on the particular actor and the dynamics of the relationship, 
but it can absolutely be a tool for deterrence.
    Mr. Hurd. Copy.
    Mr. Bhagowalia, would you like to know who was responsible 
for or have some idea of attribution for this Juniper breach?
    Mr. Bhagowalia. Absolutely, sir. You know, we have, 
obviously, been reading all the news and watching various 
channels, but we'd love to know.
    Mr. Hurd. Now, Mr. Taylor, I know the Department of State 
wasn't affected, because you didn't have any of the ScreenOS 
software running on there.
    But does anybody on the panel like to make any comments on 
attribution?
    Mr. Barger.
    Mr. Barger. To your point about attribution serving as a 
deterrent, we conducted research into a specific series of 
attacks that had been targeting entities within the South China 
Sea for quite some many years and put out an attribution 
product with the assistance of some of our partners. And, 
basically, after this attribution product was released, we 
basically saw no more activity from it. Not to say that they 
are done forever, but I do believe that it can slow down, 
mitigate active threats as well as enter into the adversary's 
decisionmaking cycle as to how important this sort of thing is 
on the world stage and how to recognize those.
    Mr. Hurd. I appreciate that.
    And, Mr. Taylor, we have--I have extended my time on too 
many occasions, but I'd like to let you know that there was a 
report that the Department recently--Department of State 
recently detected a vulnerability within its own systems, and 
we're going to provide you all with some questions that we 
would like to have answered on the record. And one of those 
questions is I hope that information has been shared with DHS 
in order to communicate that across the rest of the Federal 
infrastructure.
    Mr. Hurd. Barring no further business, I'd like to thank 
our witnesses for taking the time to appear before us today. 
And if there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               



                                 <all>
</pre></body></html>
